                                                                        Issue Date
                                                                                 December15, 2009
                                                                        Audit Report Number:
                                                                                 2010-CH-1004




TO:               Vicki B. Bott, Deputy Assistant Secretary for Single Family Housing, HU
                  Mary Kinney, Executive Vice President for Ginnie Mae, TP
                  Dane M. Narode, Associate General Counsel for Program Enforcement, CE


FROM:             Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: Leader Financial Services, Parma, Ohio, Did Not Perform an Adequate Due
           Diligence Review of Purchased Loan Components of FHA-Insured Loans

                                             HIGHLIGHTS

    What We Audited and Why

                   We performed an audit of Leader Financial Services (Leader), a Government
                   National Mortgage Association (Ginnie Mae) issuer servicing Federal Housing
                   Administration (FHA)-insured loans. We initiated the audit based on the 62
                   percent delinquency rate of Leader’s mortgage-servicing package purchased from
                   Fidelity Home Mortgage Corporation (Fidelity). Our objective was to determine
                   whether Leader complied with the U.S. Department of Housing and Urban
                   Development’s (HUD) requirements when it purchased Fidelity’s loan-servicing
                   portfolio (mortgage-servicing rights) 1.

    What We Found

                   Leader complied with HUD’s requirements in the purchase and transfer of Fidelity’s
                   loan-servicing portfolio (mortgage-servicing rights). However, it failed to perform
                   an adequate due diligence review. The loans contained a number of unacceptable
                   and/or compliance-related underwriting deficiencies, such as excessive borrower
                   qualifying ratios without valid compensating factors, inaccurate borrower asset and

1
    See Appendix D for more information on mortgage servicing rights.
              income determinations, and/or credit deficiencies. As a result, Leader subjected
              itself to unnecessary risks.

              In September 2009, American National Bank (Bank), Leader’s parent company,
              agreed to cease and desist proceedings with the U.S. Department of the Treasury’s
              Office of the Comptroller of the Currency2 for unsafe or unsound banking
              practices in the Bank’s mortgage-servicing program. The proceedings contain a
              list of provisions including that the Bank cease all residential mortgage-servicing
              activities, unless it follows the Office of the Comptroller of the Currency’s
              stipulations. The Bank agreed to exit the mortgage-servicing industry. Since
              Leader will no longer service mortgages, this report does not contain any
              recommendations regarding Leader.

What We Recommend


              We recommend that the Deputy Assistant Secretary for Single Family Housing
              determine the appropriate actions for the two underwriters that improperly
              underwrote 69 percent of the loans cited in this audit report and implement
              adequate procedures and controls to safeguard the FHA insurance fund.
              For each recommendation without a management decision, please respond and
              provide status reports in accordance with HUD Handbook 2000.06, REV-3.
              Please furnish us copies of any correspondence or directives issued because of the
              audit.
Auditee’s Response

              We provided our discussion draft audit report to Leader’s management during the
              audit. We conducted an exit conference with Leader on September 25, 2009.

              We asked Leader to provide written comments on our discussion draft audit report
              by September 28, 2009. Leader’s acting president provided written comments to
              the discussion draft report, dated September 25, 2009. The acting president
              disagreed with our finding. The complete text of the auditee’s comments, along
              with our evaluation of that response, can be found in appendix A of this report,
              except for 95 pages of documentation that was not necessary to understand the
              auditee’s comments. We provided HUD’s Deputy Assistant Secretary for Single
              Family Housing and Ginnie Mae’s Executive Vice President with a complete
              copy of Leader’s written comments plus the 95 pages of documentation.




     2
       The Office of the Comptroller of the Currency charters, regulates, and supervises all national banks. It
     also supervises the federal branches and agencies of foreign banks. The Office of the Comptroller of the
     Currency’s mission is to ensure a stable and competitive national banking system.



                                                      2
                             TABLE OF CONTENTS

Background and Objective                                                4

Results of Audit
        Finding: Leader Performed an Inadequate Due Diligence Review    5

Scope and Methodology                                                  12

Internal Controls                                                      14

Appendixes
   A.   Auditee Comments and OIG’s Evaluation                          16
   B.   Loans with Underwriting Deficiencies                           26
   C.   Federal and Leader’s Requirements                              27
   D.   Mortgage-Servicing Rights                                      29




                                             3
                          BACKGROUND AND OBJECTIVE

In 1968, Congress established the Government National Mortgage Association (Ginnie Mae) as a
government-owned corporation within the U.S. Department of Housing and Urban Development
(HUD). Ginnie Mae does not buy loans, sell loans, or issue mortgage-backed securities. Instead,
lenders pool packages of Federal Housing Administration (FHA)-insured loans and loans
guaranteed by the U.S. Department of Veterans Affairs, U.S. Department of Agriculture’s Rural
Housing Services, and HUD’s Office of Public and Indian Housing to convert the pooled loans
into securities. Ginnie Mae guarantees the timely payments of principal and interest on the
mortgage-backed securities to investors.
Mortgage-backed securities are pools of mortgages used as collateral for the issuance of
securities in the secondary market. Mortgage-backed securities are pass-through securities
because the principal and interest payment from the underlying loans are passed through to
investors. The interest rate of the security is lower than the interest rate of the underlying loan to
allow for payment of servicing and guaranty fees. Ginnie Mae mortgage-backed securities are
fully modified pass-through securities3 guaranteed by the full faith and credit of the United States
government.

HUD issued Mortgagee Letter 2002-21 to strongly encourage lenders to perform due diligence
using the industry’s best practices before purchasing loans from other lenders. However, as of
November 24, 2009, there was no federal requirement that servicing lenders perform due
diligence reviews.

Ginnie Mae approved Leader Financial Services (Leader), located at 5610 Ridge Road, Parma,
Ohio, for participation as a Ginnie Mae issuer on September 29, 2006. Leader is a mortgage-
servicing division of American National Bank. Its business activities include purchasing and
servicing mortgage loans. The servicing of loans includes the following activities: collecting,
monitoring, and reporting loan payments and handling property tax payments, insurance
escrows, late mortgage payments, etc. Before an issuer transfers a portfolio, Ginnie Mae must
approve the transfer.

We initiated the audit based on the 62 percent delinquency rate of Leader’s mortgage-servicing
portfolio purchased from Fidelity Home Mortgage Corporation (Fidelity). Our objective was to
determine whether Leader complied with HUD requirements in the purchase of Fidelity’s loan-
servicing portfolio (mortgage-servicing rights).




3
  When a borrower fails to make a monthly payment to a lender, the lender must use its own funds to pay the
investor.


                                                        4
                                  RESULTS OF AUDIT

Finding: Leader Performed an Inadequate Due Diligence Review
Leader performed an inadequate due diligence review when it purchased the mortgage-servicing
rights for a portfolio of 56 loan pools from Fidelity. The loans contained a number of unacceptable
and/or compliance-related underwriting deficiencies, such as excessive borrower qualifying ratios
without valid compensating factors, inaccurate borrower asset and income determinations, and/or
credit deficiencies. The problems occurred because Leader lacked adequate procedures and
controls to identify the risks associated with purchasing the mortgage-servicing rights for loans with
high default rates. As a result, Leader subjected itself to unnecessary risks.


 Leader Performed an
 Inadequate Due Diligence
 Review


               In November 2007, Leader initiated the purchase of servicing rights for 56 Ginnie
               Mae loan pools, valued at more than $149 million in unpaid principal balances,
               from Fidelity. However, 473 loans were removed (liquidated) from the pools
               before the purchase was finalized, thus reducing the number of loans in the pools
               to 986. Although Leader purchased Fidelity’s loan-servicing portfolio in 2007,
               Ginnie Mae did not transfer the servicing portfolio until March 2008.

               When Leader agreed to purchase Fidelity’s loan-servicing portfolio, it was aware
               that the loans had high delinquency rates. Therefore, before purchasing the loans’
               mortgage-servicing rights, Leader performed a due diligence review on 162 of the
               986 loan origination files (16 percent) to determine the feasibility of buying the
               servicing portfolio. The review consisted of a checklist of items to review in the
               loan files. However, according to Leader, the results of its due diligence review
               identified minor exceptions, and none of the exceptions undermined the integrity
               of the loans connected with the servicing portfolio.

               The review identified that 49 of the 162 (30 percent) loan files contained missing
               and/or incomplete documentation. In reviewing the checklist, we determined that
               underwriting deficiencies would not have been detected during Leader’s due
               diligence review since it only required reviewers to check for missing and
               incomplete documentation. Consequently, based on the results of the due
               diligence review, Leader purchased the mortgage-servicing rights for the loans.

               We reviewed 5 of the 162 loans that were a part of Leader’s due diligence review.
               Using Leader’s checklist, we replicated its due diligence review and compared
               our results with Leader’s. We identified that for four of the five loans, Leader’s
               checklist contained incorrect annual percentage rates. In each instance, Leader


                                                  5
                  obtained the annual percentage rate from the initial truth-in-lending statement,
                  instead of the final truth-in-lending statement, as required by its checklist
                  instructions (see appendix C), to compare with the rate on the mortgage note. In
                  addition, for one of the five loans, Leader’s reviewer did not complete all of the
                  checklist items. Specifically, one of the checklist questions required the reviewer
                  to determine whether the loan’s loan-to-value ratio exceeded 80 percent.
                  However, Leader’s checklist did not contain a response to the review question.
                  We determined that the loan-to-value ratio exceeded 80 percent.

                  Additionally, we performed an underwriting review of the five loans in our
                  sample and identified that two of the loans contained underwriting deficiencies.
                  The borrower for case number 261-9197439 initially had an adjustable-rate
                  mortgage. However, the loan was streamline refinanced4 to a fixed-rate mortgage
                  that exceeded the previous adjustable rate by more than 2 percent. According to
                  HUD Handbook 4155.1, REV-5, an adjustable-rate mortgage may be refinanced
                  to a fixed-rate mortgage provided the new fixed-rate mortgage is no more than 2
                  percent greater than the current rate of the adjustable-rate mortgage (see appendix
                  C). For case number 491-8934520, the borrower’s mortgage payment-to-income
                  ratio (front-end) exceeded HUD’s requirement of 31 percent by more than 7
                  percent without valid compensating factors. The loan was manually underwritten.
                  Mortgagee Letter 2005-16 specifies that for manually underwritten mortgages for
                  which the direct endorsement underwriter must make the credit decision, the
                  qualifying ratios are raised to 31 percent, which represents the borrower’s
                  monthly mortgage payment-to-income ratio, and 43 percent, which represents the
                  borrower’s total fixed monthly payment-to-income ratio. If either or both ratios
                  are exceeded on a manually underwritten mortgage, the lender must describe the
                  compensating factors used to justify mortgage approval (see appendix C).

    Leader Did Not Obtain All
    Loan Files

                  In addition to missing pertinent documentation in the loan files, as previously
                  mentioned, Leader did not obtain loan files for all serviced loans. For example,
                  for 32 of the 986 loans (3 percent), Leader did not obtain loan origination and/or
                  loan-servicing5 files. However, according to Leader, when the loans were
                  liquidated from the Ginnie Mae pools due to foreclosure or other means, it no
                  longer pursued obtaining the missing loan origination/servicing files. Therefore,
                  the number of missing loan files had been reduced to 15 as of September 9, 2009.




4
  Refinance an existing FHA-insured loan into a new FHA-insured loan.
5
  Origination files contain the loan origination documents, such as loan application, loan disclosures, the settlement
statement, etc. Servicing files include information regarding the borrower’s taxes, escrow, payment history, etc.


                                                           6
    The Remaining Portfolio of
    Loans Had Underwriting
    Deficiencies


                We reviewed 37 loan files from Leader’s servicing purchase. However, these
                loans were not a part of its due diligence review. Of the 37 loans, 31 were
                nonliquidated,6 and six were liquidated loans.7 Of the 37 loans, 24 (65 percent)
                contained the following unacceptable and/or compliance-related underwriting
                deficiencies:

                        Nineteen manually8 underwritten loans had one or more qualifying ratios
                         that exceeded HUD’s requirements without valid compensating factors.
                         According to HUD’s Mortgagee Letter 2005-16, for manually
                         underwritten mortgages for which the direct endorsement underwriter
                         must make the credit decision, the qualifying ratios are raised to 31
                         percent and 43 percent. If either or both ratios are exceeded on a manually
                         underwritten mortgage, the lender must describe the compensating factors
                         used to justify mortgage approval (see appendix C). For these 19 loans,
                         the range of the borrowers’ mortgage payment-to-income ratios was 32 to
                         82 percent, thus exceeding HUD’s 31 percent limit by up to 51 percent.
                         Additionally, for the borrowers’ total payment-to-monthly income ratio,
                         the range was 43 to 82 percent, thus exceeding HUD’s 43 percent limit by
                         up to 39 percent.

                        Nine loans had credit deficiencies. For instance, for one of the nine loans,
                         the borrowers had several recent credit deficiencies, including a collection
                         from a previous residence that was still outstanding when the borrowers
                         closed on the loan. The borrowers’ explanations for their credit
                         deficiencies were not adequate since they did not cover recently reported
                         credit issues. According to HUD Handbook 4155.1, REV-5, major
                         indications of derogatory credit–including judgments, collections, and any
                         other recent credit problems–require sufficient written explanation from
                         the borrower. The borrower’s explanation must make sense and be
                         consistent with other credit information in the file. Additionally, the
                         payment history of the borrower’s housing obligations holds significant
                         importance in evaluating credit. The lender must determine the
                         borrower’s payment history of housing obligations through either the
                         credit report, verification of rent directly from the landlord (with no
                         identity of interest with the borrower), verification of mortgage directly
                         from the mortgage servicer, or canceled checks covering the most recent
                         12-month period (see appendix C).

6
  Nonliquidated loans are loans still in Ginnie Mae pools.
7
  Liquidated loans have been removed from Ginnie Mae pools due to refinancing and delinquent homeowner
payments.
8
  Loans that are underwritten by a direct endorsement underwriter.


                                                      7
                 Ten borrowers’ monthly income was not accurately determined. For
                  instance, in underwriting the loans, commission and/or overtime income
                  was included in the borrowers’ income calculations without an analysis to
                  determine whether their income was stable and likely to continue for the
                  first three years of their mortgage loans. According to HUD Handbook
                  4155.1, REV-5, income may not be used in calculating the borrower’s
                  income ratios if it comes from any source that cannot be verified, is not
                  stable, or will not continue. Additionally, the income of each borrower to
                  be obligated for the mortgage debt must be analyzed to determine whether
                  it can reasonably be expected to continue through at least the first three
                  years of the mortgage loan (see appendix C).

                 For four loans, the financing costs or unpaid principal balances were
                  overestimated; therefore, the loans exceeded HUD’s maximum insurable
                  mortgage limit. As outlined in HUD Handbook 4155.1, REV-5, the
                  maximum insurable mortgage is the lesser of (1) the statutory loan limit
                  for the area (typically a county or metropolitan statistical area) or (2) the
                  applicable loan-to-value ratio. Collectively, the loans were overinsured by
                  more than $3,000 (see appendix C).

                 For five loans, the documentation maintained in the borrowers’ case
                  binders and loan files did not provide adequate documentation to
                  demonstrate that the borrowers had sufficient funds to close. According to
                  HUD Handbook 4155.1, REV-5, all funds for the borrower’s investment
                  in the property must be verified and documented (see appendix C).

                 For two loans, not all of the borrowers’ liabilities were included in the
                  calculation of their qualifying ratios. According to HUD Handbook
                  4155.1, REV-5, borrowers’ liabilities include all installment loans,
                  revolving charge accounts, real estate loans, alimony, child support, and
                  all other continuing obligations. However, for these two loans, the
                  borrowers’ child support payments were not included as part of their
                  recurring liabilities (see appendix C).

           See appendix B for a table including the full list of loan origination files reviewed
           and deficiencies identified for each loan.

Leader Lacked Adequate
Procedures and Controls


           Leader lacked adequate procedures and controls to manage risks associated with
           purchasing mortgage-servicing rights. Its quality control plan only required the
           review of the consistency and completeness of loan documentation. Therefore,
           Leader did not review the purchased servicing portfolio for underwriting
           soundness. According to Leader, since it purchased the servicing portfolio fully


                                             8
            originated, securitized, and insured, it did not perform a more detailed review.
            Further, its purchase agreement with Fidelity contained an indemnification clause
            that required Fidelity to reimburse Leader for any losses, damages, deficiencies,
            claims, etcetera, which would arise from the purchase. Although Leader’s
            purchase agreement included this indemnification clause, Leader was not
            prepared for Fidelity to go out of business.

            In 2002, HUD issued Mortgagee Letter 2002-21 to identify and recommend the
            use of prudent industry practices related to due diligence in the purchase of whole
            loans or loan pools. The letter contained a collection of procedures developed as
            best practices, accumulated from lenders in the mortgage industry. The purpose
            of the letter was to promote the use of best practices in performing due diligence
            reviews when acquiring loans from other lenders. According to the mortgagee
            letter, effective due diligence review practices would hinder the ability of lenders
            to sell predatory loans to others in the mortgage industry. If predatory loans
            cannot be sold, they are unlikely to be made, and all borrowers, including FHA
            borrowers, will be protected.

            However, Leader’s deficient due diligence review, performed in the purchase of
            Fidelity’s servicing loan portfolio, did not aid in preventing the mortgage
            servicing for risky loans from being sold. The sale allowed Fidelity to benefit
            from underwriting substandard loans.

Leader Made Revisions to Its
Policies and Procedures

            In January 2009, Leader recognized that the purchase of Fidelity’s loan-servicing
            portfolio exposed the company to unacceptable levels of risk. Therefore,
            according to Leader’s mortgage operations manager, Leader revised its policies
            and procedures to include a more thorough review when making purchases in an
            effort to implement and strengthen its procedures. Additionally, issues with the
            Fidelity purchase resulted in Leader’s strengthening its quality control standards
            beyond HUD’s requirements and similar to the best practices suggested in HUD’s
            Mortgagee Letter 2002-21.

            Leader’s due diligence review process now includes an audit for underwriting
            soundness when acquiring mortgage-servicing rights for securitized loans.




                                              9
     Incorrect Underwriters’
     Certifications Were Submitted
     to HUD


                  Although various loan correspondents9 originated the 986 loans, Fidelity
                  underwrote all of the loans. Of the 986 loans, 254 (26 percent) were liquidated
                  from the pools due to bank foreclosures and/or loss mitigation10 actions, and 732
                  loans were still in pools as of March 2009. Of the 732 loans, 661 loans had active
                  FHA insurance, 23 loans had terminated insurance, and HUD had paid claims on
                  48 loans as of September 4, 2009. Additionally, of the 732 loans still in Ginnie
                  Mae pools as of March 2009, 109 borrowers (15 percent) defaulted on their
                  mortgage within the first six payments.

                  For the 732 loans in Ginnie Mae pools, two of Fidelity’s underwriters underwrote
                  49 percent of the loans (approximately 359 loans). Further, of the 26 previously
                  mentioned loans with unacceptable and/or compliance-related underwriting
                  deficiencies, the same two underwriters underwrote 69 percent of the loans.
                  Under HUD’s direct endorsement program, direct endorsement underwriters
                  certify to the integrity of the data for automated underwritten loans, or for
                  manually underwritten loans, the underwriter certifies that due diligence was used
                  in underwriting the loans. All of the 26 loans were manually underwritten.

     Conclusion

                  Because of Leader’s inadequate due diligence review, it subjected itself to
                  unnecessary risks. According to a letter to Ginnie Mae, dated November 2007,
                  Leader committed itself to protecting the credit quality of the purchased servicing
                  portfolio by implementing additional loss mitigation efforts to work with the
                  troubled loans. However, as previously mentioned, 26 percent of the loans had
                  liquidated as of March 2009. Further, the missing files and/or file documentation
                  resulted in Leader’s incurring additional costs and challenged Leader’s ability to
                  meet the requirements in its quality control plan for loan servicing.

                  Additionally, according to HUD’s mortgagee letter, if due diligence is to be an
                  effective protection against predatory lending, purchasers must complete their due
                  diligence review before closing the sale transaction. A rigorous prepurchase
                  review protects the purchaser and puts sellers on notice that poor quality,
                  predatory, or fraudulently originated loans cannot be pawned off on legitimate
                  mortgagees simply based on the strength of the FHA insurance endorsement.



9
 Companies that originate mortgage loans but do not underwrite them.
10
  Actions used in negotiations between a homeowner and the homeowner’s lender to prevent foreclosure, such as a
short sale, mortgage loan terms modification, short refinance negotiation, deed in lieu of foreclosure, etc.


                                                      10
Leader Will No Longer Service
Mortgages

           The U.S. Department of the Treasury’s Office of the Comptroller of the Currency
           issued cease and desist proceedings against American National Bank (Bank) for
           unsafe or unsound banking practices in its mortgage-servicing program. The
           Bank, in the interest of compliance and cooperation, consented to the proceedings.
           The proceedings contain a list of provisions including that the Bank cease all
           residential mortgage-servicing activities, unless it follows the Office of the
           Comptroller of the Currency’s stipulations. Thus, Leader agreed to exit the
           mortgage-servicing industry. Additionally, the Bank sent a letter, dated
           September 29, 2009, to Ginnie Mae, indicating its agreement to exit the
           mortgage-servicing business and that it was seeking bids from qualified
           candidates in an effort to sell the mortgage-servicing rights of its servicing
           portfolios. Since Leader will no longer service mortgages, this report does not
           contain any recommendations to the Deputy Assistant Secretary for Single Family
           Housing regarding Leader.

Recommendations

             We recommend that the Deputy Assistant Secretary for Single Family Housing

                  1A.    Determine appropriate actions for the two underwriters that
                         improperly underwrote 69 percent of the loans cited in this audit
                         report.

                  1B.    Implement adequate procedures and controls to safeguard the FHA
                         insurance fund.

           We recommend that HUD’s Associate General Counsel for Program Enforcement

                  1C.    Determine legal sufficiency and if legally sufficient, pursue
                         remedies under the Program Fraud Civil Remedies Act against
                         Fidelity and/or its principals who incorrectly certified that due
                         diligence was used in the underwriting decisions and the loans
                         cited in this audit with unacceptable underwriting deficiencies
                         were eligible for FHA mortgage insurance.




                                           11
                              SCOPE AND METHODOLOGY

We performed our audit work between February and August 2009. We conducted our audit at
Leader’s headquarters in Parma, Ohio, and HUD’s Chicago regional office. The audit covered
the period January 1, 2008, through January 31, 2009.

To accomplish our audit, we researched and reviewed applicable HUD handbooks, regulations,
mortgagee letters, and other reports and policies related to the Ginnie Mae’s mortgage-backed
securities and FHA mortgage insurance programs. We also conducted interviews with Leader’s
and the Bank’s staff and HUD’s staff.

Due Diligence Review

For the due diligence review, we randomly selected 5 of the 162 loans that Leader reviewed as a
part of its due diligence review and performed the following steps:

     •   Reviewed the documentation maintained in the loan files.
     •   Using Leader’s checklist, we performed our own analysis of the loan documentation and
         compared our results to Leader’s.
     •   Performed an underwriting review of the loans.

Leader purchased the servicing rights for 986 loans from Fidelity in 2007. Using data obtained
from Ginnie Mae, Leader, and Dovenmuehle (Leader’s subcontracted servicer ), as well as
HUD’s systems such as Single Family Data Warehouse11 and Neighborhood Watch12, we were
able to account for 732 nonliquidated loans as of March 2009. Of the 732 nonliquidated loans,
we identified 106 loans for which the borrowers defaulted on their mortgage payments within the
first six payments and 16 loans on which HUD paid claims.

Liquidated Loans

Using a variable sample at a 90 percent confidence level, standard deviation of $43,752, 10
percent desired sampling precision, and sampling error of $12,111, we statistically selected 32
loans from the universe of 318 liquidated loans that were still active, meaning that the loans’
FHA insurance was not terminated through refinancing, because they were paid in full, or by
some other means. Although we selected 32 loans, we were only able to review 8 of the 32
selected loans from Leader because it did not obtain and maintain sufficient records for the
liquidated loans to enable us to perform an adequate and complete underwriting review.
Additionally, we were unable to obtain the case binders from HUD, so the number of loans
reviewed was further reduced to six. Due to the limited number of files reviewed, we combined
this review with the nonliquidated loans. The universes for the liquidated and nonliquidated

11
  A HUD system that contains data from FHA Single Family automated systems.
12
  A HUD system intended to aid HUD staff in monitoring lenders and HUD programs and to aid lenders and the
public in self-policing the industry. This system is designed to highlight exceptions so that potential problems are
readily identifiable. In addition, the system can be used to identify loan programs, geographic areas, and lenders
that are performing well.


                                                          12
loans were distinct in that the nonliquidated loans were still in Ginnie Mae pools and the
liquidated loans were no longer in Ginnie Mae pools. However, the loans were tested similarly
concerning their compliance with FHA’s underwriting requirements despite whether they had
been removed from Ginnie Mae’s pools. Both the liquidated and nonliquidated loans were FHA-
insured loans; thus, they were expected to be compliant with HUD’s underwriting requirements.
Additionally, the results of the loan reviews were for informational purposes only; thus, we did
not project the results.

Nonliquidated Loans

We reviewed 16 loans, which was the total universe of loans that had resulted in claims as of
March 2009. Therefore, we performed 100 percent testing of the loans for which HUD paid
claims. Additionally, using a variable sample, at a 90 percent confidence level, standard
deviation of $52,441, and sampling error of $13,685, we statistically selected 29 of the 106 loans
for which borrowers defaulted on their mortgage in the first six payments and remained in
default for at least 60 days. Of the 29 loans, we concluded our review after reviewing 15 of the
loans due to the significantly high error rate. Reviewing the additional 14 loans would not have
influenced our determination regarding the compliance of the loans. In performing our review
for compliance with FHA’s underwriting requirements, we

    •   Reviewed the documentation maintained in the FHA case binders and Leader’s files.
    •   Performed analyses of borrowers’ income calculations, assets, employment, residential
        information, credit, etc.
    •   Reviewed and compared our results to HUD’s underwriting requirements.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objective.




                                                13
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are achieved:

   •   Program operations,
   •   Relevance and reliability of information,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined that the following internal controls were relevant to our audit
              objective:

              •   Program operations – Policies and procedures that management has
                  implemented to reasonably ensure that a program meets its objectives.

              •   Validity and reliability of data – Policies and procedures that management has
                  implemented to reasonably ensure that valid and reliable data are obtained,
                  maintained, and fairly disclosed in reports.

              •   Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

              •   Safeguarding resources – Policies and procedures that management has
                  implemented to reasonably ensure that resources are safeguarded against
                  waste, loss, and misuse.


              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               14
Significant Weakness


           Based on our review, we believe that the following item is a significant weakness:

           •   Leader performed an inadequate due diligence review when it purchased
               Fidelity’s mortgage-servicing package (see finding).




                                            15
                                 APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                 Auditee Comments




Comment 1


Comment 2


Comment 3


Comment 4




                        OIG’s Evaluation of Auditee Comments




                                         16
Ref to OIG Evaluation                 Auditee Comments




Comment 5

Comment 6




Comment 7




Comment 8




Comment 9




                        OIG’s Evaluation of Auditee Comments




                                         17
Ref to OIG Evaluation                 Auditee Comments




Comment 10

Comment 11


Comment 12



Comment 13




Comment 14

Comment 15

Comment 16




                        OIG’s Evaluation of Auditee Comments




                                         18
Ref to OIG Evaluation                 Auditee Comments




Comment 17




Comment 18




Comment 19




                        OIG’s Evaluation of Auditee Comments




                                         19
Ref to OIG Evaluation                 Auditee Comments




Comment 20




Comment 21

Comment 22



Comment 23




                        OIG’s Evaluation of Auditee Comments




                                         20
                         OIG Evaluation of Auditee Comments

Comment 1   Leader contends that the draft audit report is based on certain fundamental
            misunderstandings of Leader’s transaction with Fidelity and the relationships of
            the parties involved. Leader views the conclusions and recommendations as
            being based on an understanding that Leader purchased residential mortgage loans
            from Fidelity. We agree that we used the term “loan purchase” when discussing
            the Fidelity transaction. However, Leader’s management and staff used the term
            interchangeably in discussions and written communications concerning the
            Fidelity purchase. Additionally, according to a representative from Ginnie Mae,
            mortgage-servicing rights are considered a component of a loan, as a loan is
            comprised of more than one asset. Nonetheless, we revised the audit report to
            clarify that Leader purchased Fidelity’s loan-servicing portfolio.

Comment 2   See comment 1.

Comment 3   Leader contends that the draft audit report refers to or implies that Leader
            purchased whole loans from Fidelity. Additionally, the requirements in appendix
            C of this audit report are related to the acquisition of loans, not the acquisition of
            servicing rights, and are, therefore, not applicable to this situation. We disagree.
            The draft audit report did not state or imply that Leader purchased whole loans,
            meaning both the actual loan and mortgage-servicing rights, from Fidelity.
            Further, the criterion cited in appendix C applies to the purchase transaction since
            Leader purchased a component of the loan (mortgage-servicing rights). HUD’s
            Mortgagee Letter 2002-21 refers to the purchase of loans and whole loans.
            Therefore, according to HUD, most servicers/lenders only purchase the servicing
            rights and not the whole loan. HUD created the mortgagee letter to remind
            servicers that a servicer/lender purchasing servicing rights or the whole loan
            (asset and the servicing rights) should conduct a thorough due diligence review
            because it is bound by all of the obligations of the seller under the contract for
            mortgage insurance.

            Further, Leader’s management was aware of the intention of the mortgagee letter
            and provided written comments regarding changes made to its current quality
            control plan and procedures, effective January 2009. The changes included the
            suggestions outlined in the mortgagee letter in regard to acquiring seasoned or
            flow loan packages of mortgage-servicing rights. Additionally, the draft audit
            report acknowledges that the loans were already pooled through Ginnie Mae.

Comment 4   Leader contends that the transaction benefited Ginnie Mae. If Leader did not
            purchase the mortgage-servicing rights, the rights would have remained with
            Fidelity, which would have not been able to service them or make advances as
            Leader did. Leader also contends that it should be thanked for having participated
            in the Fidelity transaction and not be subject to criticism. We acknowledge that
            Leader agreed to service high-default loans; however, if Leader had performed an
            adequate due diligence review, it would have identified that some of the



                                              21
            borrowers were not qualified for mortgage loans. Therefore, the loans’ default
            was inevitable, and Leader subjected itself to unnecessary risks.

Comment 5   Leader contends that Ginnie Mae expressly approved the sale and transfer of
            Fidelity’s loan-servicing portfolio. We agree that Ginnie Mae approved the sale
            of Fidelity’s loan-servicing portfolio. However, the approval should not negate
            Leader’s due diligence.

Comment 6   Leader contends that since there is no finding that Leader violated any federal law
            or regulation, the final report should not include any recommendation or
            requirement regarding actions to be taken by Leader. We agree. This final audit
            report contains no finding that Leader violated any federal law or regulation and
            states such in the background section of the draft audit report. However, Leader
            did not perform an adequate due diligence review or maintain loan files. A due
            diligence review of loans (mortgage-servicing rights) and whole loans are a
            prudent business practice in the mortgage banking industry. Leader was aware of
            this practice and revised its policies and procedures to strengthen its review of
            acquired seasoned and flow loan packages of mortgage-servicing rights because
            of the purchase of the Fidelity loan-servicing portfolio. We removed the
            recommendation that applies to Leader only because of its agreement with the
            Office of the Comptroller of the Currency to exit the mortgage-servicing business
            since the recommendation in the audit report would not be applicable if Leader no
            longer services mortgage loans.

Comment 7   Leader contends that due to the content of its comments and related materials,
            OIG should withdraw its draft audit report. We disagree. Leader’s written
            comments and provided documentation did not materially affect the overall
            conclusion or recommendations cited in the draft audit report. However, we
            removed the recommendation that applies to Leader because of its agreement with
            the Office of the Comptroller of the Currency to exit the mortgage-servicing
            business. The recommendation in the audit report would not be applicable since
            Leader will no longer service loans. Further, as mentioned in comment 1, we
            revised the audit report to clarify that Leader purchased Fidelity’s loan-servicing
            portfolio (mortgage-servicing rights).

Comment 8   Leader contends that the objective in the draft audit report shows a fundamental
            misunderstanding and is erroneous, as it states that the objective is to determine
            whether Leader complied with federal requirements in the purchase of Fidelity’s
            loan portfolio. We partially agree. The objective of the report does not indicate a
            fundamental misunderstanding and is not erroneous. However, it should be
            clarified to avoid any misunderstanding in regard to Leader’s purchase of
            Fidelity’s loan-servicing portfolio. However, according to Ginnie Mae, a
            mortgage-servicing right is a component of a loan, and HUD considers it as part
            of the loan as indicated in Mortgagee Letter 2002-21. Additionally, according to
            HUD, most servicers do not own the whole loan; therefore, the mortgagee letter is
            referring to both the purchases of whole loans and/or loans (mortgage-servicing



                                            22
              rights). Therefore, to be consistent with HUD’s terminology, we worded our
              objective in accordance with Mortgagee Letter 2002-21. Nonetheless, as
              mentioned in comment 1, we adjusted the report to clarify the purchase
              transaction.

Comment 9     Leader contends that it did not aid Fidelity in selling noncompliant FHA loans in
              the secondary market and that the mortgage-servicing rights for a portfolio of
              Ginnie Mae loans that it purchased had already been securitized and sold in the
              secondary market. Leader further contends that if any of the loans were
              noncompliant, the noncompliance occurred before Leader became involved and
              that Leader’s acquisition of the mortgage-servicing rights had nothing to do with
              the original underwriting, any FHA compliance issues, or the sale of the loans in
              the secondary market. We agree that Leader purchased the mortgage-servicing
              rights for loans that were securitized and already sold in the secondary market.
              Therefore, we adjusted the wording of the audit report, as appropriate. However,
              according to HUD, purchasing servicing rights bounds the purchaser to the
              obligations of the seller under the contract for mortgage insurance. Although
              Leader did not underwrite the loans, it should have performed an adequate due
              diligence review due to the risks it assumes upon acquiring the mortgage-
              servicing rights.

Comment 10 Leader contends that with respect to loan files, Leader will cooperate with HUD
           with respect to loan files in its possession. Leader is also seeking to obtain
           original loan files for Fidelity. We acknowledge Leader’s cooperation in regard
           to working with HUD and its efforts to obtain original loan files from Fidelity.

Comment 11 Leader requests clarification on the second paragraph of the report and whether it
           relates to a management decision by Leader. The second paragraph contains
           recommendations to the Deputy Assistant Secretary for Single Family Housing.
           As previously mentioned in comment 6, we removed the only recommendation
           that would have applied to Leader in connection with the proceedings by the
           Office of the Comptroller of the Currency and Leader’s agreement to no longer
           service mortgage loans.

Comment 12 See comment 9.

Comment 13 Leader contends that it does not agree with the finding that it purchased Fidelity’s
           loan portfolio. It also does not agree that Leader’s due diligence was inadequate
           with respect to its purchase of Fidelity’s mortgage-servicing rights. The due
           diligence standards for purchasing mortgage-servicing rights are not the same as
           the due diligence standards for purchasing loans. As mentioned previously, we
           revised the report to clarify the events of the purchase transaction. According to
           HUD, the industry standards and best practices referred to in Mortgagee Letter
           2002-21 are guidelines for servicers/lenders that purchase whole loans or just the
           mortgage-servicing rights for loans. Additionally, Leader was aware that the
           mortgagee letter was applicable to mortgage servicers since it revised its policies



                                              23
              and procedures for purchasing mortgage-servicing rights in accordance with the
              mortgagee letter in January 2009 before our audit. Additionally, Leader
              confirmed its understanding in regard to the applicability of the letter in verbal
              and written discussions regarding the purchase.

Comment 14 See comments 1 and 2 in which we addressed adjusting the audit report as
           necessary to provide clarification and avoid any misunderstanding.

Comment 15 Leader contends that it does not agree with the conclusion on page 10 or the
           recommendations related to Leader on page 10 due to the discussion of the report
           through the middle of page 9 relating to the purchase of loans and not mortgage-
           servicing rights. We refer to our rebuttals made in comments 1 and 2.
           Additionally, we removed the recommendation that applies to Leader as discussed
           in comment 6.

Comment 16 Leader contends that it took actions to compel Fidelity to produce the loan
           origination documentation that it had failed to provide Leader, with actions taken
           including withholding funds from the sale price, obtaining outside counsel to
           demand access to Fidelity’s facilities, and filing a lawsuit against Fidelity to
           obtain possession of the missing documentation. Leader also contends that all of
           the collateral documents for all loans in which Leader acquired the servicing
           rights from Fidelity, such as the original note, mortgage, and title insurance
           policy, have been accounted for and are being held by its document custodian,
           and the custodian has certified or recertified possession of the documents to
           Ginnie Mae. We acknowledge Leader’s efforts in attempting to obtain the
           missing documentation. We also acknowledge that a document custodian had the
           collateral documents and provided the necessary certifications. However, Leader
           cannot sufficiently perform a servicing quality control review, as outlined in its
           quality control plan, on a loan using only collateral documents (such as note,
           mortgage, and title insurance policy). Therefore, other needed documentation,
           such as borrowers’ loan applications, verification of employment, rent, asset
           forms, credit report(s), appraisals, etc., also need to be reviewed.

Comment 17 See comment 9.

Comment 18 Leader contends that it has an indemnification agreement in place with Fidelity,
           Fidelity has failed to honor such agreements, and thus Leader is seeking legal
           remedies against Fidelity to recover its losses. Further, Leader contends that the
           Fidelity acquisition has benefitted Ginnie Mae, as it is Leader’s understanding
           that Ginnie Mae determined Fidelity to be in default with its own servicing
           obligations. We acknowledge that Leader had an indemnification agreement with
           Fidelity. However, according to HUD, a servicer/lender purchasing servicing
           should conduct a thorough due diligence review because it is bound by all of the
           obligations of the seller under the contract for mortgage insurance. Therefore, the
           indemnification agreement does not mitigate the need to perform an adequate due
           diligence review as outlined in HUD’s Mortgagee Letter 2002-21.



                                               24
Comment 19 See comments 1, 2, and 6.

Comment 20 Leader contends that it did not aid any entity in selling noncompliant loans in the
           secondary market, since the loans had already been sold in the secondary market.
           Additionally, its acquisition of the mortgage-servicing rights took place after the
           loans were sold in the secondary market. Leader also contends that it did not
           increase the risk to the FHA insurance fund but, instead, reduced that risk because
           it was able to service the loans better than Fidelity. We agree that the loans had
           already been sold in the secondary market. Therefore, we made the necessary
           revisions to the audit report. However, we disagree that Leader did not increase
           the risk to the FHA insurance fund. Leader purchased the servicing rights for
           noncompliant FHA loans, thereby allowing Fidelity to benefit from the purchase.
           According to HUD’s Mortgagee Letter 2002-12, effective due diligence review
           practices would hinder the ability of lenders to sell predatory loans to others in the
           mortgage industry. If predatory loans cannot be sold, they are unlikely to be
           made, and all borrowers, including FHA borrowers, will be protected.

Comment 21 See comment 7.

Comment 22 Leader contends that obtaining loan underwriting documents is of lesser
           significance, unless they become the subject of a specific dispute or claim. It also
           contends that it has filed a lawsuit against Fidelity to attempt to recover the
           missing documentation. Lender, as a servicing lender, should have all pertinent
           loan documents to perform an adequate due diligence review and to meet HUD’s
           and its own requirements under its approved quality control plan for servicing
           loans. We acknowledge Leader’s willingness to obtain missing loan file
           documentation. This documentation will aid in ensuring that it is able to perform
           sufficient reviews of loan files under its quality control plan for servicing loans.

Comment 23 Leader requests that if the report is not withdrawn as it relates to Leader, but
           rather is modified, Leader would like an opportunity to review the modified report
           before the issuance of the report. We will not withdraw the audit report.
           However, we made necessary adjustments to the report for clarification. These
           adjustments did not materially affect the overall finding/conclusion of the audit.




                                               25
Appendix B

           LOANS WITH UNDERWRITING DEFICIENCIES

              Qualifying                                                   Over -
FHA case        ratios        Income           Asset       Misreported    insured     Credit
 number       exceeded     discrepancies   discrepancies    liabilities   amount    deficiencies
492-7808862       X                               X                                      X
491-8841803                                       X                                      X
492-7783226       X             X
381-7971237       X             X
052-4097935       X                                             X
491-8891477       X
052-3985843       X             X                                         $1,728
492-7771184       X             X
491-8952967       X             X
105-3000321       X                                                         400
541-7546991       X                                                                      X
492-7833628       X                                                                      X
495-7641373       X             X                                                        X
492-7782266                                       X                                      X
541-7585929       X             X
492-7669564                                       X                         324          X
492-7861851       X                                                                      X
492-7654619       X             X                               X
491-8961447                                                                              X
492-7716296       X             X                                           582
495-7519873                                       X
492-7796309       X
492-7711571       X
483-3682407       X             X
   Totals         19            10                5             2         $3,034         9




                                             26
Appendix C

              FEDERAL AND LEADER’S REQUIREMENTS

Mortgagee Letter 2002-21, Due Diligence in Acquiring Loans, dated September 26, 2002,
strongly encourages lenders to perform due diligence using the industry’s best practices before
purchasing loans from other lenders.

HUD Handbook 4155.1, REV-5, states that the qualifying debt-to-income ratios are 31 percent
(mortgage payment/income) and 43 percent (total fixed payment/income) according to paragraph
2-12 and updated by Mortgagee Letter 2005-16. When the debt-to-income ratios are exceeded,
compensating factors are needed to justify the approval of the loan. The underwriter must list
any compensating factors in the “remarks” section of the mortgage credit analysis worksheet,
and any compensating factor used to justify mortgage approval must be supported by
documentation.

Chapter 1, section 4, paragraph 1-12, of the handbook states that an adjustable-rate mortgage
may be refinanced to a fixed-rate mortgage provided the new fixed-rate mortgage is no more
than 2 percent greater than the current rate of the adjustable-rate mortgage. Additionally all
mortgage payments must have been made within the month due for the past 12 months.

Chapter 2, section 1, paragraph 2-3, of the handbook states that major indications of derogatory
credit–including judgments, collections, and any other recent credit problems–require sufficient
written explanation from the borrower. The borrower’s explanation must make sense and be
consistent with other credit information in the file. Additionally, the payment history of the
borrower’s housing obligations holds significant importance in evaluating credit. The lender
must determine the borrower’s payment history of housing obligations through either the credit
report, verification of rent directly from the landlord (with no identity of interest with the
borrower), verification of mortgage directly from the mortgage servicer, or canceled checks
covering the most recent 12-month period.

Chapter 2, section 2, of the handbook states that income may not be used in calculating the
borrower’s income ratios if it comes from any source that cannot be verified, is not stable, or will
not continue. Additionally, income from other sources can be included as effective income with
proper verification by the lender. Chapter 2-7 states that the income of each borrower to be
obligated for the mortgage debt must be analyzed to determine whether it can reasonably be
expected to continue through at least the first three years of the mortgage loan.

Chapter 2, section 4, paragraph 2-11, of the handbook states that the borrower’s liabilities
include all installment loans, revolving charge accounts, real estate loans, alimony, child support,
and all other continuing obligations.

Chapter 1, section 2, paragraph 1-6, states that the maximum insurable mortgage is the lesser of
(1) the statutory loan limit for the area (typically a county or metropolitan statistical area) or (2)
the applicable loan-to-value ratio.


                                                  27
Chapter 2, section 3, paragraph 2-10, of the handbook states that all funds for the borrower’s
investment in the property must be verified and documented.

Mortgagee Letter 2005-16 specifies that for manually underwritten mortgages for which the
direct endorsement underwriter must make the credit decision, the qualifying ratios are raised to
31 percent and 43 percent. If either or both ratios are exceeded on a manually underwritten
mortgage, the lender must describe the compensating factors used to justify mortgage approval.

Leader’s due diligence review checklist, effective November 5, 2007, required the reviewer to
record the annual percentage rate and the note rate from the final truth-in-lending statement and
review loan documentation to determine whether the loan-to-value ratio is greater than 80
percent.




                                                28
Appendix D

                      MORTGAGE-SERVICING RIGHTS

Mortgage servicing is a loan component. Servicers/lenders purchase the rights to service a
mortgage loan or a portfolio of loans from another servicer/lender for a fee with approval from
the holder of the note. Mortgage-servicing rights can be their own asset and have their own
value separate from the underlying loan. A lender can originate or purchase mortgage-servicing
rights.

Leader did not originate or underwrite the loans; instead, it purchased the rights to service
Fidelity’s 56 Ginnie Mae loan pools. A lender can purchase mortgage-servicing rights in three
ways: bulk acquisitions, production flow activities, or business combinations. In a bulk
acquisition transaction, an entity purchases the servicing rights only, leaving ownership of the
underlying mortgages or securities to the investor. A production flow activity transaction
involves a servicer/lender purchasing both newly underwritten mortgage loans and the rights to
service the loans. To qualify for this activity, the lender must (1) be formally committed to sell
or securitize the loans before it completes the purchase, (2) obtain a commitment to sell the
mortgages to an investor within a reasonable timeframe after purchase or before the purchase
date, or (3) make a commitment to deliver the mortgage loans for securitization. In a business
combination, a lender enters into a business combination transaction, whereby the purchasing
lender purchases the existing mortgage-servicing rights of the purchased lender as part of the
business combination transaction. Of the three methods of acquiring mortgage-servicing rights,
Leader’s purchase of Fidelity’s servicing loan portfolio was a bulk acquisition transaction. See
the illustration on the following page.




                                                29
Flow
   wchart of mortgage-serrvicing rightts creation and transferr

               
               




                              30
